                          Office of Inspector General
                          Legal Services Corporation



Inspector General
Jeffrey E. Schanz

3333 K Street, Nw; 3rd Floor
Washington, D C 20007-3558
202.295. 1660 (p) 202.337.66! 6 (f)
www.oig.lsc.gov



              August 7, 2014


              Anna Marie Johnson
              Executive Director
              Nevada Legal Services, Inc.
              530 South 61h Street
              Las Vegas, NV 89101

              Dear Ms. Johnson:

             Enclosed is the Office of Inspector General's (OIG) final report of our audit on
             Selected Internal Controls at Nevada Legal Services, Inc. (NLS). The OIG
             reviewed your comments on the findings and recommendations contained in the
             draft report. Your comments are included in the final report as Appendix II.

             The OIG does not consider your comments to Recommendations 1, 8, and 9
             responsive and is referring them to LSC management for resolution. In addition, in
             accordance with 45 CFR § 1630.7, the OIG is referring the questioned costs related
             to Recommendation 1 to LSC management for resolution . The questioned costs
             consist of $1 ,246 of unallowable charges and $728 of inadequately supported
             costs.

             The OIG considers your comments to Recommendations 3, 4, 5, 6, 7, 10, 13, and
             14 partially responsive. They will remain open until the OIG has been notified in
             writing that the applicable written policies have been updated and added to the
             Accounting Manual and all meetings and training to discuss adherence with
             accounting policies and procedures has been completed with NLS staff. The OIG
             considers your explanations and actions responsive to Recommendations 2, 11,
             and 12 and those recommendations are considered closed .




                                                                                    =LLSC
                                                                                    II   ~Am<•id• Pmna   E.p.aJ )wOo<
We thank you and your staff for your cooperation and assistance.

Sincerely,

        .
               -/"
             Co-""
                /,
                  '
1t.zchanz
r-·. .)
J
    (
                . ~

Inspector General
                    <




Enclosure


cc: Legal SeNices Corporation
    Jim Sandman, President

    Lynn Jennings, Vice President
    for Grants Management
  LEGAL SERVICES CORPORATION

  OFFICE OF INSPECTOR GENERAL




 REPORT ON SELECTED INTERNAL
          CONTROLS


NEVADA LEGAL SERVICES, INC.
          RNO 829050

       Report No. AU 14-08


          August 2014




         www.oig.lsc.gov
                                               TABLE OF CONTENTS

INTRODUCTION ............. ............................................. .... ..... .......................................... 1
OBJECTIVE .................................................................. ... ...... ..... .. .... ............................... 1
OVERALL EVALUATION .... ............. ... .......... ....... ..... .......... ............................................ 1
AUDIT FINDINGS ... ... ... .. ........... ... ... ...................................... .. .. ... .. ......... ..... ................ ... 3
   Disbursements ............................................................................................................. 3
     Recommendation 1 : .................. ......... ............ ... ......................... .............................. 5
     Recommendation 2 .................................................................................................. 5
     Recommendation 3 ........... ........ .. .................... ... ... .. ................................................ . 5
     Recommendation 4 ....................................... .... ...... ... .............................................. 5
   Cost Allocation ... ......................................................................... ...... ................. ..... ..... 5
    Recommendation 5: ................ .... ........................................ ............... ...... ... ... .......... 6
     Recommendation 6 ............................................................. ............... ..... ..... ....... ..... 6
     Recommendation 7 ....................................... ............. ..... .............................. ........ ... 6
   Contracting .............. ... ...... ....... ............................... .. ...... ...................................... ..... ... 7
     Recommendation 8 .............................................................. ...... .... ....... ................... 7
     Recommendation 9 ............................. .. ................ ..... ....... .. ..................................... 7
   Employee Benefits ...... ............. ... .. .. ...... ... .. .. ................... ....... . .... ............ ..................... 7
    Recommendation 1 0 ... .......................... .. .......... .... ..................... .............................. 8
   Fixed and Physical Assets .... ........................................ ..... ......................... ......... ........ 8
     Recommendation 11 ........ .. ... .................................................. ..... .... .. ... ................... 9
     Recommendation 12 ........... ........ ....................................... ..... ... .... .......................... 9
   Credit Cards .................................................. ..................... ...... .. .. ...................... .......... 9
     Recommendation 13 ............................................... ... .......... ... .. ............................. 10
     Recommendation 14 ............ ........................................................... ..... ..... ............. 10
SUMMARY OF GRANTEE MANAGEMENT COMMENTS ...................................... ...... 10
OIG EVALUATION OF GRANTEE MANAGEMENT COMMENTS ............................ .... 12
APPENDIX I- SCOPE AND METHODOLOGY
APPENDIX II- GRANTEE MANAGEMENT COMMENTS
                                  INTRODUCTION

The Legal Services Corporation (LSC) Office of Inspector General (OIG) assessed the
adequacy of selected internal controls in place at Nevada Legal Services, Inc. (NLS or
grantee) related to specific grantee operations and oversight. We conducted audit work
at the grantee's administrative office in Las Vegas, Nevada and at LSC headquarters in
Washington, DC.

In accordance with the Legal Services Corporation Accounting Guide for LSC
Recipients (201 0 Edition) (Accounting Guide), Chapter 3, an LSC grantee" .. . is required
to establish and maintain adequate accounting records and internal control procedures."
The Accounting Guide defines internal control as follows:

      [T]he process put in place, managed and maintained by the
      recipient's board of directors and management, which is designed
      to provide reasonable assurance of achieving the following
      objectives:

       1. safeguarding of assets against unauthorized use or disposition;
       2. reliability of financial information and reporting; and
       3. compliance with regulations and laws that have a direct and
          material effect on the program.

Chapter 3 of the Accounting Guide further provides that each grantee "must rely [ ] ...
upon its own system of internal accounting controls and procedures to address these
concerns" such as preventing defalcations and meeting the complete financial
information needs of its management.

                                     OBJECTIVE

The overall objective was to assess the adequacy of selected internal controls in place
at the grantee as the controls related to specific grantee operations and oversight,
including program expenditures and fiscal accountability.       Specifically, the audit
evaluated selected financial and administrative areas and tested the related controls to
ensure that costs were adequately supported and allowed under the LSC Act and LSC
regulations.

                             OVERALL EVALUATION

Nevada Legal Services, Inc. needs to strengthen internal controls and enhance written
policies and procedures to comply with the Accounting Guide and LSC regulations , and
adhere more closely to its established written policies.

We tested 85 disbursements totaling $185,845 for which the grantee charged $106,657
to LSC funds.    Of the 85 disbursements, we found 21 that were unallowable,
inadequately supported , or improperly approved.

                                            1
Generally, the cost allocation methodology used by NLS appeared reasonable, except
that it did not include a provision for allocating indirect costs prohibited by LSC
regulations. The OIG noted that NLS used LSC funds to pay for expenses prohibited by
LSC regulations because of the flaw in the design of the cost allocation methodology.
In addition, the grantee's written cost allocation policy was outdated.

The grantee's contracting policies were missing critical elements required by the
Fundamental Criteria of an Accounting and Financial Reporting System (Fundamental
Criteria) contained in the LSC Accounting Guide, including guidelines for securing
various types of contracts, competition requirements, and executing contracts that
deviate from standard procedures. The grantee's policy stipulated that the Board of
Directors had to approve purchases over $5,000, but management did not adhere to
this requirement. Additionally, management stated that it had secured competitive bids
for purchases over $500, but the OIG did not find evidence of the bidding process in the
grantee's practice or its written policy.

NLS had internal controls in place regarding employee benefits, but did not always
adhere to the established controls. The grantee had adequate written policies in place,
but management overrode these written policies.

The grantee's written policies and procedures regarding fixed assets were in
accordance with the Fundamental Criteria contained in the Accounting Guide.
However, the grantee did not retain sufficient evidence to substantiate that they had
performed an inventory of fixed and physical assets, or that they had reconciled the
assets to property records. Without appropriate evidence, the OIG could not confirm
that management actually performed the inventory. In addition, property records
retained by NLS management, for physical assets were missing key recordkeeping
elements required by the Accounting Guide.

The grantee did not have adequate internal controls in place governing the use and
issuance of credit cards. NLS did not have a written policy outlining acceptable uses of
credit cards. Nevada Legal Services, Inc., Accounting Manual (Accounting Manual)
stipulated that management must approve all charges but did not detail the types of
purchases that cardholders were authorized to make with the credit cards. The OIG
found three unallowable transactions totaling $781, charged to NLS credit cards.

NLS did not have a written policy regarding derivative income. Although the grantee
handled the derivative income earned during the audit scope correctly, management
should formalize applicable policies and procedures in writing.

The grantee had adequate internal controls in place over the internal reporting and
budgeting process. The policies and procedures for internal reporting and budgeting,
outlined in the Accounting Manual, were comparable to the Fundamental Criteria and
NLS adhered to the policies.




                                           2
                                     AUDIT FINDINGS

DISBURSEMENTS

The OIG tested 85 disbursements totaling $185,845 for which the grantee charged
$106,657 to LSC funds. 1 Of the 85 disbursements, we found 21 that were unallowable,
inadequately supported, or improperly approved. The total amount charged to LSC
from these disbursements was $15,802.

Specifically, the OIG noted:

    •   fourteen unallowable disbursements;
    •   five inadequately supported disbursements; and
    •   two disbursement that were not approved by the grantee's Board of Directors, as
        stipulated by the grantee's internal policies.

Ensuring that costs are allowable, maintaining adequate supporting documentation for
expenditures, and approving disbursements appropriately helps to ensure that grantees
use funds only for authorized purposes.

LSC Regulation, 45 CFR Part 1630, Costs Standards and Procedures, provides that
grantee expenditures should be reasonable and necessary for the performance of the
grant or contract and that grantees should adequately document expend itures. The
Fundamental Criteria also states that disbursements require adequate documentation,
contained in grantee files, to support the reason for each disbursement.

Section Ill C 1, Cash Disbursements Policies of Nevada Legal Services. Inc. Accounting
Manual (Accounting Manual) states that no funds will be disbursed, regardless of the
source, for any purpose specifically prohibited by LSC Act or regu lations. LSC OIG
noted that NLS does not abide by this policy. In addition, the Accounting Manual
advises that the Executive Director shall regularly review all disbursements to ensure
compliance with all NLS policies and applicable fund(s) restrictions.

Section 2-3.1, Grant and Contract Costs, of the Accounting Guide stipulates that costs
of alcohol are not allowable as a charge to federal funds.

The grantee's Accounting Manual stipulates that the Board of Directors is responsible
for entering into appropriate contractual agreements on behalf of the Program, including
but not limited to funding grants, leases, and purchases of property and/or equipment in
excess of $5,000.



1
   The OIG reviewed eighty-two (82) transactions dated within the audit scope : January 1, 2012 to
September 30, 2013. The total amount of these transactions was $170 ,898. The OIG reviewed three (3)
transactions outside of the audit scope, dated October 21 , 2013 and November 1, 2013 , that totaled
$14,947.

                                                 3
Unallowable Costs

NLS used LSC funds to pay for 14 disbursements, totaling approximately $1 ,246, for
unallowable purposes. The OIG noted:

   •   two disbursements, totaling $765, for purchases of alcohol;
   •   two disbursements, totaling $222, for flowers;
   •   four disbursements, totaling $153, for membersh ip dues, paid on behalf of
       employees, to a warehouse retailer; and
   •   six disbursements, totaling $106, for late fees on revolving credit accounts, utility
       bills, and office machine rentals .

NLS management approved all of the invoices for unallowable disbursements following
internal accounting procedures. Consequently, the internal control structure, built into
the approval process, was not functioning properly.

For 12 of the 14 unallowable disbursements, the expenditures for flowers, membership
dues , and late fees , totaling $481 , the cost allocation methodology used by NLS was a
proximate cause of the breakdown in internal control. When incurred , the grantee
assigned these indirect expenses to a generic cost pool. At the end of each month, the
Fiscal Administrator re-allocated the costs across applicable funding sources, including
LSC , according to the cost allocation formula even though the charges were not allowed
by LSC regulations.

Finally, the cause of the two unallowable disbursements for alcohol, totaling $765, was
a classification error and management oversight. The Fiscal Administrator allocated the
purchases directly to LSC and the Executive Director did not catch the error in her
review of the supporting documentation for both purchases. She approved them even
though the Accounting Guide stipulates that costs of alcohol are not allowable as a
charge to LSC.

Inadequately Supported Costs

NLS did not provide sufficient supporting documentation for five disbursements. NLS
used $728 in LSC funds to pay for the expenditures, which included:

   •   three disbursements, totaling $599, for employee travel reimbursements; and
   •   two disbursements, totaling $129, for cellphone reimbursements.

NLS could not provide adequate documentation to substantiate employee travel
reimbursements because the existing policy did not require employees to submit
sufficient evidence of miles traveled . Similarly, NLS did not have a policy or signed
agreement with employees in place regarding cellphone reimbursements . Without a
policy or agreement, the OIG was unable to determine whether the expenditures were
reasonable and necessary.

                                            4
The OIG questions 16 disbursements, for which the grantee paid $1,375 with LSC
funds, which were unallowable or insufficiently supported per 45 CFR § 1630.3. This
includes all 14 unallowable disbursements and two inadequately supported cellphone
reimbursements. The OIG will refer the questioned costs to LSC management for
review and action.

Improper Approval

The grantee's Board of Directors did not approve two disbursements of LSC funds,
each in excess of $5,000, in accordance with the grantee's internal written procedures.
The total amount paid with LSC funds was $13,828 and included :

   •   one disbursement of $6 ,600 for an annual membership to and related services
       from an online resource for legal aid and pro bono attorneys; and
   •   one disbursement, totaling $7,228, for a luncheon, hosted by NLS.

Recommendations: The Executive Director should :

Recommendation 1: ensure that NLS abides by Section Ill C 1, Cash Disbursements
Policies of the Accounting Manual or modify the policy to prohibit disbursing LSC funds
for purposes prohibited by the Accounting Guide and LSC regulations including alcohol,
flowers, and late fees . Grantee management should communicate the policies to the
entire staff.

Recommendation 2: adhere to established policies for purchases in excess of $5,000
and obtain approval from the Board of Directors as required by the grantee's Accounting
Manual and LSC regulations.

Recommendation 3: develop a written policy governing reimbursements for business
use of personal cell phones. The policy should require employees to sign a written
agreement and should stipulate that the grantee retain the agreement to substantiate
reimbursement transactions.

Recommendation 4:          enforce procedures that        require   sufficient   supporting
documentation, prior to approval, for all expenditures.

COST ALLOCATION

Generally, the cost allocation methodology used by NLS appeared reasonable, except
that it did not include a provision for allocating indirect costs prohibited by LSC
regulations. The grantee allocated indirect costs between locations and grants based
on direct labor hours. The OIG noted that NLS used LSC funds to pay for expenses
prohibited by LSC regulations because of the flaw in the design of the cost allocation
methodology.



                                            5
In addition, the written policy was outdated. Grantee management changed the cost
allocation methodology as of January 1, 2013, but did not revise its Accounting Manual
to correspond to actual practice.

NLS allocates costs by:

       fund - unrestricted federal funds, restricted federal funds, restricted non-federal
       funds, or
       property- location, grant, and expense type.

Costs that are directly attributable to a specific funding source are debited directly to the
appropriate grant. Indirect expenses, which are not attributable to a specific funding
source, are debited to grant code 99, a generic cost pool. At the end of each month, the
Fiscal Administrator allocates the indirect costs accumulated in grant code 99 to fund ing
sources based on the cost allocation formula . The current methodology does not
include a provision for allocating indirect costs prohibited by LSC regulations to funding
sources other than LSC. The grantee's written cost allocation policy, outlined in its
Accounting Manual, needed to be enhanced to include such a mechanism.

In addition, grantee management made two changes to the cost allocation methodology
as of January 1, 2013, but did not revise the Accounting Manual correspondingly. First,
the Fiscal Administrator altered slightly the method for allocating administrative labor
costs between locations. Second , the Fiscal Administrator created grant code 98, a
generic cost pool for indirect labor expenses. Similar to grant code 99 , NLS allocated
the charges that accumulated in grant code 98 to the appropriate funding sources at the
end of each month. The cost allocation policies contained in the grantee's Accounting
Manual did not reflect these changes.

The cause of the flaw in the cost allocation methodology and discrepancy between the
current practice and written policy was a management oversight.

A flawed cost allocation methodology prevents management and stakeholders from
fairly assessing the total cost of activities. Additionally, funds designated for specific
purposes may be misused.

Recommendations: The Executive Director should:

Recommendation 5: develop a written policy for allocating indirect costs that are
prohibited by LSC regulations to funding sources other than LSC.

Recommendation 6: ensure written policies and procedures for cost allocation are
updated to fully describe the process as practiced by the program. These policies and
procedures should address the requirements of 45 CFR Part 1630 and LSC's
Accounting Guide.

Recommendation 7: adhere to written policies and procedures for cost allocation.


                                             6
CONTRACTING

The grantee's contracting policies, contained in the Accounting Manual were missing
critical elements required by LSC's Fundamental Criteria. The policies did not address
in sufficient detail the following areas.

    •   Securing various types of contracts
    •   Dollar thresholds
    •   Competition requirements
    •   Approval authority
    •   Documentation requirements
    •   Executing contracts that deviate from standard procedures, such as sole-source
        procurement
    •   Modifying contracts

Although the Accounting Manual did not sufficiently address policies for contracting, it
does designate responsibility for approving purchases over $5,000 to the grantee's
Board of Directors. The OIG found two instances, both dated November 1, 2013, of
purchases exceeding the $5,000 threshold for which we did not find evidence of Board
approval. 2

In addition, NLS management stated that they secured three competitive bids for
purchases of goods and services over $500. However, this policy was not documented
in the grantee's Accounting Manual. The OIG examined the supporting documentation
for four (4) transactions that exceeded the $500 threshold and did not find evidence of
competitive bidding.

Weak contracting practices can result in waste of scare funds and subject grantees to
questioned cost proceedings.

Recommendations: The Executive Director should:

Recommendation 8: ensure written policies and procedures for contracting address all
of the elements required by LSC's Fundamental Criteria.

Recommendation 9:         train staff to adhere to written policies and procedures for
contracting.

EMPLOYEE BENEFITS

NLS had internal controls in place regarding employee benefits, but did not always
adhere to the established controls. The grantee had written benefit policies, but

2
  The OIG expanded the scope of the audit, per generally accepted government auditing standards, to
include select transactions dated after September 30, 2013.

                                                7
management overrode the written policies, deviating from the requirements outlined in
Nevada Legal Services, Inc., Personnel Policies and Procedures Manual (Personnel
Policies and Procedures Manual).

The OIG noted two instances where the Executive Director granted benefits to
employees that deviated from established written policy. First, the grantee's Personnel
Policies and Procedures Manual stipulates that permanent, part-time, employees that
work more than twenty-eight (28) hours per week are eligible for group medical
coverage, dental, and life insurance. The OIG found that a part-time employee, who
worked fewer than 28 hours per week, received this group medical coverage, dental,
and life insurance. The Executive Director explained that she granted the exception as
a retention incentive.

In the second instance, the Executive Director authorized a salary advance in an
amount that exceeded the total value of vacation leave that the employee had accrued.

The OIG noted a discrepancy between the grantee's salary advance policies outlined in
the Personnel Policies and Procedures Manual and the policy management explained
to us as operating in practice. The written policy contained in the Personnel Policies
and Procedures Manual detailed that a salary advance could not exceed the amount of
pay the employee would earn in two pay periods. However, we were told by staff that
an additional policy existed regarding the dollar amount of salary advances. In addition
to not exceeding two pay periods' worth of salary or wages, salary advances could not
exceed the dollar amount of an employee's accrued vacation. The Salary Advance
Request form used by NLS stated this policy. Management explained that the policy
stated on the Salary Advance Request form reflected current practice. Regardless, the
Executive Director made an exception and approved a salary advance that exceeded
the dollar amount of an employee's accrued vacation . The dollar amount of the
employee's accrued leave was $1 ,554, but the amount of the salary advance was
$2,400.

When benefit policies are not clear and complete and when management deviates from
the established written policy, the grantee may not apply benefits, both in appearance
and fact, equitably.

Recommendations: The Executive Director should :

Recommendation 10: update written benefits policies and include language that allows
management to grant exceptions to benefits policies, at their discretion, to
accommodate organizational needs.

FIXED AND PHYSICAL ASSETS

The grantee's written policies and procedures regarding fixed assets are in accordance
with the Fundamental Criteria contained in the Accounting Guide. However, NLS did
not maintain adequate internal controls over fixed assets (i.e., assets with a purchase


                                           8
cost of $5,000 or greater) or physical assets (i.e., equipment valued below the $5,000
threshold for capitalization, but easily misused or misappropriated) in practice.
Management explained that they performed annual inventories of fixed and physical
assets to property records. However, the grantee did not retain sufficient evidence to
substantiate that they had performed an inventory in 2012 and reconciled the results to
the property records. Without adequate evidence, the OIG could not confirm that
management actually performed the inventory.

In addition, property records, retained by NLS management, for physical assets were
missing key recordkeeping elements required by the Accounting Guide. These include:

   •   source of funds used for acquisition;
   •   inventory control number;
   •   acquisition date;
   •   cost;
   •   location of asset;
   •   useful life; and
   •   date of disposal and sales price.

Management was unaware of the requirements outlined in the Accounting Guide. This
was a proximate cause of the weaknesses in internal controls over fixed and physical
assets.

Properly accounting for fixed and physical assets enables the grantee to safeguard its
assets, fully account for the assets purchased and support reconciliations so that
property asset balances are accurate.

Recommendations: The Executive Director should:

Recommendation 11: ensure the grantee documents in writing the results of physical
inventory counts and reconciliations of inventory to property subsidiary records and the
General Ledger.

Recommendation 12: update the property records to include all fields required by
LSC's Fundamental Criteria.

CREDIT CARDS

The grantee did not have adequate internal controls in place governing the use and
issuance of credit cards.

NLS did not have a written policy outlining acceptable uses of credit cards. The
grantee's Accounting Manual stipulated that management must approve all charges but
did not detail the types of purchases that cardholders were authorized to make with the




                                               9
credit cards. Of the 14 unallowable disbursements, totaling approximately $1,246,
noted previously, three, totaling $781, were charged to NLS credit cards. 3

Additionally, the grantee did not keep adequate records pertaining to credit cards issued
to staff members. Management did not require employees, to whom the grantee issued
credit cards, to sign acknowledgements of receipt. The Fiscal Administrator also did not
record the date on which the grantee issued credit cards to cardholders.

Properly controlling the use and issuance of credit cards through written policies and
sound recordkeeping practices reduces the potential for misuse and protects the
grantee's limited assets.

Recommendations: The Executive Director should :

Recommendation 13: strengthen the written policies contained in the grantee's
Accounting Manual that govern credit card usage. The policies should clearly delineate
acceptable uses of credit cards and standards for recordkeeping including a provision
requiring the Fiscal Administrator to document the date on which the grantee issues
credit cards to staff.

Recommendation 14: require staff to sign an acknowledgement of receipt of credit
cards and require the Fiscal Administrator to retain the acknowledgement forms in credit
card files.

           SUMMARY OF GRANTEE MANAGEMENT COMMENTS

Grantee management disagreed with the unallowable costs section of the disbursement
finding and recommendations in the report. The grantee stated that the coding of one
disbursement for alcohol to LSC was a typographical error. A second disbursement for
the purchase of alcohol was due to an error on the invoice submitted by the vendor.
Grantee management explained that LSC funds were not used for the first purchase of
alcohol and that they requested that the vendor reimburse Nevada Legal Services for
the cost of the second purchase of alcohol. Grantee management stated that in the
future, staff approving requisitions will pay close attention each time a requisition is
approved.

Grantee management stated that the expenditures for the Costco membership and
flowers were for legitimate business purposes. They stated that NLS incurred late fees
on a few bills during 2012 but did not allocate those late fees to LSC funding .

Regarding the costs OIG found were inadequately supported, NLS management stated
that the checks reviewed by the OIG contain all the appropriate documentation as
required by NLS's written policies.

3
  These transactions included two disbursements, totaling $222, for flowers and one disbursement of
$559 for alcohol.

                                               10
Grantee management stated that it did not have a written agreement with the employee
for whom NLS pays a portion of the employee's private cell phone bill. According to
NLS, it is in the process of developing a written policy for such expenses and the policy
will be ready for adoption by the Board of Directors at their September meeting .

For the costs that the OIG found were improperly approved, NLS management stated
that the Board of Directors approved both. Grantee management explained that the
$6,600 disbursement is the annual payment of the fee for the grantee's
NevadaLawHelp.org website. NLS pays a yearly fee in order to have the LSC required
statewide website. Grantee management stated that the disbursement is a known
annual technology cost and has been included in NLS' annual budget for over a
decade. The Board of Directors approved the cost when it approved the annual budget.

In addition, NLS explained that the second disbursement is the cost for the annual pro
bono awards luncheon . NLS stated that it is a known annual expense and is included in
the annual budget that is approved by the Board of Directors.

Grantee management stated that NLS has drafted a revised cost allocation method. If
approved, the Board of Directors will adopt it at its September meeting.

Grantee management stated the work to secure the vendor for entertainment at the
grantee's annual pro bono awards luncheon in Reno was performed five years ago. At
the time, grantee management found only one source of entertainment that was
appropriate. The contract was secured five years ago and had not changed since then.
The second and third contract costs, grantee management stated, were for venues for
their annual pro bono awards luncheon in Reno and Las Vegas. When the luncheon
began five years ago, NLS contacted several possible venues in both locations for
quotes. The contract with the vendor for the Reno luncheon has not changed in five
years. For the Las Vegas luncheon, the vendor notified NLS that its costs were
increasing three years ago. NLS searched for a new vendor at that time and accepted
an offer from a new vendor where the Las Vegas luncheon has been held for the past
three years. The contract has not changed over those three years. Grantee
management stated that NLS would search for new venues and ask for quotes for
services if the cost of either venue should change.

The final contract, for the grantee's NevadaLawHelp.org website, was secured over a
decade ago and predates anyone who is currently at NLS, grantee management
explained. Current grantee management does not know why that program was
specifically chosen nor the process used to secure the contract. The annual fee
associated with the program has been part of the NLS annual budget since then.

Grantee management stated that they deviated from written employee benefits policies
in an effort to retain qualified staff through a job sharing arrangement. NLS is in the
process of updating their Accounting Manual to outline written policies regarding job
sharing . Grantee management stated that its manual does not specifically grant the


                                           11
Executive Director the ability to waive any policy under certain circumstances, such as
granting salary advances that do not adhere to the written policy, but the manual will be
updated to reflect that the Executive Director has the authority to grant such waivers.

Grantee management stated that fixed and physical asset inventories contain the
information required by the NLS Accounting Manual and are reconciled to the General
Ledger.

NLS responded that the NLS Accounting Manual does not detail the use for which
company credit cards can be used. This will be included in the update of the NLS
Accounting Manual. Grantee management further stated that NLS does not have a
form that an employee receiving a credit card signs acknowledging receipt of the credit
card, but will draft one to include in the Accounting Manual.


     OIG EVALUATION OF GRANTEE MANAGEMENT COMMENTS

The OIG has reviewed the grantee's comments on the draft report findings and
recommendations.

In its response to the disbursement finding regarding unallowable costs, NLS
management did not address Recommendation 1. The OIG disagrees with grantee
management's response regarding the Costco membership and flowers.
Disbursements for flowers are not allocable to LSC even if they are legitimate business
expenses. Grantee management stated in their response that the disbursements to
Costco were for business memberships for two employees who purchase office
supplies. They stated that the business membership resulted in cost savings. The OIG
disagrees with grantee management's response. The annual fee for a Costco business
membership is $55.00. Up to six additional cardholders may be added to the
membership for $55.00 each and up to six household members may be added for free.
The invoices we examined showed NLS added up to twelve employees to the Costco
membership. Some employees reimbursed NLS in full for the membership while others
did not. The OIG questioned only the portion of the disbursements for Costco
memberships for which NLS did not provide supporting documentation showing that the
grantee was reimbursed in full. The OIG also disagrees with grantee management's
response regarding late fees. Grantee management provided additional documentation
in their response, but it was not for the transactions cited in the report.
Recommendation 1 will remain open until the OIG has been notified in writing that NLS
will abide by Section Ill C 1, Cash Disbursements Policies of the Accounting Manual or
the policy to prohibit disbursing LSC funds for purposes prohibited by the Accounting
Guide and LSC regulations including alcohol, flowers, and late fees has been modified.
Additionally, NLS management must notify the OIG in writing when meetings with staff
to discuss adherence to accounting policies and procedures have been completed.

The grantee addressed Recommendation 2 by providing explanation of the approvals
obtained by the Board of Directors for purchases in excess of $5,000. However, best
practices for contracting include seeking competitive bids each time a contract is

                                           12
solicited and explicitly seeking approval by the Board of Directors each time a contract
is solicited, rather than simply having the disbursements approved as a line item in the
annual budget.

The grantee partially addressed Recommendations 3 and 4. However, the OIG noted in
the report that the grantee's written policies for substantiating employee travel
reimbursements are not adequate. To fully address Recommendation 4, the grantee
needs to revise its existing policy to require employees to submit evidence of miles
traveled, e.g., by providing the beginning and ending points of each trip and total
mileage traveled. The recommendations will remain open until the OIG is notified in
writing that the applicable written policies have been updated and added to the
Accounting Manual.

The grantee has partially addressed Recommendations 5, 6, and 7.                  The
recommendations will remain open until the OIG is notified in writing that the revised
cost allocation methodology in accordance with LSC requirements has been adopted by
the Board of Directors and fully implemented.

Recommendations 8 and 9 have not been addressed. They will remain open until the
grantee revises its written policies and procedures for contracting to address all the
elements required by LSC's Fundamental Criteria and the OIG is notified in writing of
the revisions to the applicable policies.

The grantee has partially addressed Recommendation 10. The recommendation will
remain open until the OIG has been notified in writing that the applicable policies have
been adopted by the Board of Directors and fully implemented .

The grantee has addressed Recommendations 11 and 12 by completing and providing
the results of the office inventory for 2013 to the OIG . The OIG considers the
recommendations closed .

The grantee has partially addressed Recommendations 13 and 14 by proposing
updates to the Accounting Manual that include details on the acceptable uses of credit
cards and by drafting a form to include in the Accounting Manual that employees will
sign to acknowledge receipt of a credit card . The recommendations will remain open
until the OIG is notified in writing that the updates have been adopted by the Board of
Directors and fully implemented.




                                          13
                                                                    APPENDIX I
                         SCOPE AND METHODOLOGY

To accomplish the audit objective, the OIG identified, reviewed, evaluated and tested
internal controls related to the following areas.

   •   Cash disbursements
   •   Credit card usage
   •   Cost allocation
   •   Contracting
   •   Property and equipment
   •   Derivative income
   •   Employee benefits
   •   Internal management reporting and budgeting

To obtain an understanding of the internal controls over these areas, we reviewed
grantee policies and procedures including manuals, guidelines, memoranda, and
directives setting forth current grantee practices. We interviewed grantee officials to
obtain an understanding of the internal control framework and to assess the level of
awareness and knowledge of management and staff of the processes in place. To
review and evaluate internal controls, we compared the grantee's internal control
system and processes to the guidelines in the Fundamental Criteria of an Accounting
and Financial Reporting System (Fundamental Criteria) contained in the LSC
Accounting Guide. This review was limited in scope and was not sufficient for
expressing an opinion on the entire system of grantee internal controls over financial
operations.

We assessed the reliability of computer-generated data provided by the grantee by
reviewing source documentation for the entries selected for review. We determined that
the data were sufficiently reliable for the purposes of this report.

To test the appropriateness of expenditures and to test for the existence of adequate
supporting documentation, we reviewed disbursements from a judgmentally selected
sample of employee and vendor files. We selected 82 transactions from the period
January 1, 2012 through September 30, 2013 and three transactions dated outside the
audit scope. The 82 transactions totaled $170,562, and represented approximately
3 percent of the $5,952,703 disbursed for expenses other than payroll, during the period
January 1, 2012 through September 30, 2013. To assess the appropriateness of
expenditures, we reviewed invoices, vendor lists, and traced the expenditures to the
general ledger. We evaluated the appropriateness of the expenditures on the basis of
grant agreements, applicable laws and regulations, and LSC policy guidance.

To evaluate and test internal controls over the contracting process, credit card use,
internal management reporting and budgeting, and property and equipment, we



                                         I-1
inteNiewed appropriate program personnel, examined related policies and procedures,
and selected specific transactions to review for adequacy.

We reviewed controls over salary advances by examining personnel policies and
practices and by testing a judgmentally selected sample of employee reimbursements
as part of the disbursements testing. To assess the salary advance process, we
reviewed salary advance requests for appropriate approvals and compliance with the
grantee's internal standards. We reviewed them to determine whether the salary
advances exceeded two pay periods' worth of salary and/or exceeded the dollar amount
of an employee's accrued vacation. We examined the accounting records showing the
amount of salary paid in advance and individual pay statements showing the amounts
deducted towards the repayment of the salary advance.

We reviewed the grantee's cost allocation process, for 2012 and 2013, to determine if it
was in compliance the Accounting Guide. We compared the cost allocation procedures
actually practiced by the grantee to the grantee's written policies and procedures. We
selected two months within the audit scope, November 2012 and June 2013, and
reviewed documentation supporting cost allocations for those months using the
information provided by the grantee. We reviewed the subsequent journal entries
posted by the grantee to the general ledger to allocate costs for the two months.

We reviewed controls over derivative income by inteNiewing management, identifying
current grantee practices, reviewing the written policies contained in the grantee's
Accounting Manual, and examining entries to the accounting system documenting
receipt and allocation of derivative income.

The OIG conducted on-site fieldwork from November 11 , 2013 through November 15,
2013. Our work was conducted at the grantee's central administrative office in Las
Vegas, Nevada and at LSC headquarters in Washington, DC. We reviewed documents
pertaining primarily to the period January 1, 2012 through September 30, 2013. We
expanded the scope to examine specific disbursement transactions through
November 1, 2013.

This audit was conducted in accordance with generally accepted government auditing
standards. Those standards require that the audit be planned and performed to obtain
sufficient, appropriate evidence to provide a reasonable basis for the findings and
conclusions based on the audit objectives. The OIG believes that the evidence
obtained provides a reasonable basis for the findings and conclusions based on the
audit objectives.
                                                                                                      APPENDIX II
                               July 7, 2014

NEVADA LEGAL SERVICES
                              John Seeba
                              Assistant Inspector General for Audit
530 South 6th Street
Las Vegas, NV 89101           Office of Inspector General
Phone: (702) 386-0404         Legal Services Corporation
Fax (702) 388-1641            3333 K Street NW, 3rd Floor
204 Marsh Ave., Ste. 10 l     Washington DC 20007-3558
Reno, NV 89509-1654
Phone (775) 284-3491
Phone (775) 883-0404
Toll Free 1-800-323-8666            Re: Nevada Legal Services' Revised Response to the Draft Audit Report
Fax (775) 284-3497

285 l O'h Street
Elko NV 89801               Dear Mr. Seeba:
Phone {775) 753-5880
Fax (775) 753-5890          This letter will serve as Nevada Legal Services' revised response to your draft audit report
1155 E.91h St Ste. 25       dated May 13, 2014. We are grateful for the extension of time granted to us to reply to the
Reno, NV 89512              report. We will go through the audit findings section by section and provide a response.
Phone (775) 334-3050
Fax (775) 334-3056
                            Disbursements:

                            Unallowable Costs

                            The Report states that NLS used LSC funds to pay 14 disbursements for unallowable
                            pmposes. NLS respectfully disagrees with the findings.

                            The first disbursement for the purchase of alcohol (EFT0081) was the purchase of wine that
                            was used as door prizes for the annual pro bono award luncheons in Reno and Las Vegas.
                            The coding was simply a typographical error that was not caught. The receipt for the
                            purchase clearly states that non-LSC funds were to be used for the purchase. Please see the
                            receipt attached as Ex11ibit 1.

                            The second disbmsement for the purchase of alcohol was an en-or. As was explained during
                            the OIG visit, the Peppermill donates bottles of wine that are served to the guests during our
                            pro bono award luncheon. What NLS is responsible for paying is the waiter service. The
                            wine itself is not supposed to be included on the invoice. The invoice should look like the
                            one that the OIG reviewed for the 2013 luncheon at the Peppermill. This enor was not
                            caught by the Peppennill before the invoice was sent out and was not caught by NLS when
                            the invoice was paid. NLS has requested that the Peppennill reimburse NLS for the $206
                            and the Peppe1miH has agreed to do so. Then no LSC funds will have been used for tl1is
                            purpose.

                            For both of the above matters, all we can do is say that the staff making the approvals will
                            pay close attention each time a requisition is approved, especially when the stack of
                            requisitions is large. The topic has been added to the agenda for our Management Team
                            meeting on August 2nd.

                            The $15 3 for the Costco memberships is a legitimate business expense. NLS uses Costco to
                            purchase a goodly amount of our office supplies. In order to receive the least expensive
lJ~LSC                      membersl1ip for the purchase of office supplies, Costco itself suggested that NLS simply pay
for individual memberships for the staff members who have responsibility for purchasing
office supplies. NLS followed this advice and does purchase an individual membership
for a staff member in the Reno office and a staff member in the Las Vegas office whose
responsibilities include the purchasing of office supplies. The cost savings over
purchasing a business membership is quite substantiaL The costs for those two
memberships were coded to Grant Code 99, the general allocation code. The costs were
allocated to all of our grant funds, including a portion to LSC funds as the purchase of
office supplies is a legitimate business expense.

NLS did incur late fees on a few bills during 2012. The 1·eason for the late fees was that
NLS had two grant funders that were irresponsibly late in making disbursements after
NLS submitted our monthly reports and invoices. One funder did not pay NLS its first
payment until seven months into the contract, after NLS had to threaten to bring suit
against them. Between the cuts in federal funding due to sequestration and the two
funding sources that were late in their reimbursements, NLS was having a cash flow issue
in 2012. NLS paid our bills when we had the cash in the ban1c That resulted in some late
fees. However, NLS did not allocate those late fees to LSC funding. The late fees in all
cases were allocated to Grant Code 30 (county filing fees), which is unrestricted, non-
federal funding. Please see the backup documentation attached as Exhibit 2.

The disbursements for flowers did have a legitimate business purpose. Two NLS
employees lost immediate family members during the year, and NLS sent flowers to the
funerals. Other NLS employees were hospitalized after serious surgery and NLS sent
them flowers. A normal cost of doing business is the need to maintain morale and these
small gestures of caring mean a great deal to the staff. NLS did charge three of the flower
purchases to LSC funds, but not the fourth one. The fourth purchase was charged to
Grant Code 12, which is unrestricted non-federal funds. NLS has not made such
purchases with LSC funds since then. The Board of Directors does question why such
purchases are not considered allowable uses of LSC funding. It is a normal cost of
business to make such purchases for staff members.

Inadequately Supported Costs

NLS' travel policy for staff does require employees to submit sufficient evidence of
travel. Please see the copies of the relevant p01iion of the NLS Manual attached as
Exhibit 3. The staff member is required to submit three documents: the Travel Request
Form, the Travel Reimbursement form, and, in cases where the staff member is requesting
reimbursement of mileage, the Mileage Fonn. The last form requires the staff member to
state the pmpose of the travel, the case number where applicable, and the odometer
readings. NLS used the template provided by the OIG a few years ago for the Mileage
F01m. The checks that were reviewed by the OIG do contain all of the appropriate
documentation as required by our written policies. Please see the backup documentation
attached as Exhibit 4.

NLS did not have a written agreement with the employee for whom NLS pays a portion of
the employee's private cell phone bill. The employee uses his cell phone for work
purposes most of the time, including the nightly and weekly backup of our electronic files.
NLS is in the processing of developing a written policy for such expenses and it will be
ready for adoption by the Board of Directors at their Septen1ber meeting.


                                                                                2 )Pag e
Improper Approval

The NLS Board of Directors did approve both of these disbursements. The $6,600
disbursement is the annual payments of the fee for our NevadaLawHelp.org website. The
Legal Services Corporation requires NLS to have and maintain a statewide website
providing legal information for the client community. NLS chose ProBono.Net's program
as the template and server storage for the website. Our NevadaLawHelp.org is not located
on our server system. It is located on the ProBono.Net servers and the servers are
maintained by ProBono.Net. NLS pays a yearly fee in order to have the required
statewide website. Tills is a lmown annual technology cost and is included in the
technology line items in NLS' annual budget. It has been for over a decade. The Board
of Directors approved this cost when it approved the annual budget. All known annual
costs (such as office rent, mortgage payments, technology costs, case management system
fee) are included in our annual budget that is approved by the Board of Directors each
year.

The second disbursement is the cost for our annual pro bono awards luncheon at the
Peppem1ill Mill Resort. The costs for the two annual awards luncheons are also known
annual costs and are included in the annual budget. This disbursement was approved
when the Boru·d ofDirectors approved the annual budget.

Cost Allocation:

NLS has drafted a revised cost allocation method. The draft is attached as Exhibit 5 for
your review. If approved, the revised cost allocation method will be adopted by the Board
of Directors at its September meeting.

Contracting:

This finding questions the lack of bidding for services over $500 as per the NLS policy.
One is the cost for the Reno Jazz Orchestra. Tills cost is for the entertainment at our
annual pro bono awards luncheon in Reno. When NLS first established the annual pro
bono awards luncheons five years ago, we decided that we wanted to include some light
entertainment for the guests as they were checking in and milling about until the luncheon
began. In Reno, NLS searched for possible entertainers and we found only one source
that was appropriate (there were many rock bands and DJs that were not appropriate for
what NLS wanted). The one source was the Reno Jazz Orchestra. We have used the
Reno Jazz Orchestra evmy year. The work to find the appropriate vendor for this service
was done five years ago and the contract with the Reno Jazz Orchestra has not changed in
five years.

The second and third costs are the costs for the venues for our annual pro bono awards
luncheon in Reno. Again, five years ago when NLS first established our pro bono awards
luncheon, NLS contacted several possible venues and asked for quotes. The Peppermill
offered the best deal for the greatest amount of service. NLS has continued with the
Peppennill as the contract has not changed in five years. NLS did the same tiling with the
Las Vegas pro bono awards luncheon. When it began five years ago, NLS contacted
several possible venues for quotes and settled on the Springs Preserve. At the beginning
of the third year, the Springs Preserve notified NLS that its costs were increasing and our
awards luncheon would cost nearly triple the amount of the year before. NLS searched
for a new venue and accepted the quote offered by the Las Vegas Country Club, where the
                                                                                3jPage
awards luncheon has been held for the past three years. If either venue's costs should
change, NLS will again search for a new venue and ask for quotes for services and will
decide on a contract that is the least cost for the best services.

The final contract is the $6,600 fee that NLS pays for the housing and maintenance of our
NevadaLawHelp.org statewide website. When the Legal Services Corporation first
required that each program be part of a statewide website. the Corporation gave programs
three options: choose one of the recommended programs (ProBono.net or Kaivo) or create
your own. Nevada Legal Services chose to go with ProBono.net. That decision was
made over a decade ago and predates anyone who is culTently at NLS. We do not know
why that program specifically was chosen nor do we know what process was used.
However, since the program was chosen, the annual fee for the maintenance of the
program has been a part of the NLS annual budget, as explained above.

Employee Benefits:

One of the new employment trends is job sharing (where two people request that they
share one full-time position between the two of them). In the past year, NLS has been
approached twice about the possibility of job sharing two open positions. In both cases,
NLS wanted to hire the two employees requesting the job sharing arrangement as the
employees were the most qualified for the position and were well respected by the staff
IN the instance refened to by the OIG, one if the employees was a long-time NLS
employee with a great deal of expertise that NLS wanted to keep on staff and the job
sharing proposal she suggested was a way to keep that expertise. NLS and the two
employees for each position worked out the job sharing arrangement, including the hours
each was to work and specific duties under the position and which employee would get
the insurance benefits that came with the full-time position. NLS does not have a written
policy regarding job sharing positions. NLS is in the process of updating our manual to
reflect the growing employment trends. The policy will be ready for the Board of
Directors to adopt at its September meeting.

The second incident was where the Executive Director granted a written waiver to the
policy that requires a staff person to have enough accrued vacation to cover the cost of a
salary advance for a salary advance to be granted. In the incident in question, the
Executive Director discussed the request for a salary advance with the employee, lmew
the circumstances for the request, lmew that the employee would have eamed enough
accrued vacation to cover the salary advance within the next month, and knew the
employee would not leave before the salary advance was paid in full. The Executive
Director granted the waiver and approved the salary advance. The NLS manual does not
specifically grant the Executive Director the ability to waive any policy under certain
circumstances. Everyone has assumed that the power to do so exists. This will be added
to the updates that NLS is malcing to its manuaL

Fixed and Physical Assets:

NLS has very few fixed assets because of the $5,000 fixed asset limit. There are very few
assets that NLS purchases that exceed the $5,000 threshold for capitalization. For the
fixed assets, NLS does maintain the required inventmy with the information regarding
source of funds used, inventory control number, etc. Physical assets do not require the
same documentation that the fixed assets do under the NLS accounting manual. NLS'
inventory of physical assets includes a description of the asset, the inventory or tag
                                                                               4 jPage
number of the asset, its location, and if the asset was disposed of during the year, the date
of disposal.

At the time of the OIG audit, the Las Vegas and E lko offices had completed their
inventories of both fixed and physical assets. The Reno office had not yet completed their
inventory. The Reno office inventory was completed after the OIG audit and the entire
inventory was provided to the OIG. NLS completed its 2014 inventory and it is attached
as Exhibit 6. The fixed and physical assets inventories do contain the information
required by the NLS manual and are reconciled to the General Ledger.

Credit Cards:

NLS' manual does not detail the use for which company credit cards can be used. This
will be included in the updating of the NLS manual that is taking place. However, NLS
believes that the specific uses of the credit cards that the OIG points out were legitimate
uses of the credit card and were addressed above.

NLS does not have a form that an employee receiving a credit card signs acknowledging
receipt of the credit card and will draft one to include in our Accounting Manual. What
NLS has done in the past was to physically hand the credit card to the employees that are
located in the Las Vegas office. For the employees in the northern offices, NLS sends the
employee an e-mail informing the employee that the credit card is in the mail and the
employee responds when the credit card arrives. There has always been knowledge by the
accounting staffthat the staff member did receive the credit cards.

If you require any ft.uther infonnation from NLS, please let me know. We'd be happy to
supply it for you.

Sincerely,

o/)~~w~~~
AnnaMarie Johnso
Executive Director




                                                                                  5I Page
